Nos. 19-1231, 19-1241
IN THE

Supreme Court of the United
States

____________________
FEDERAL COMMUNICATIONS COMMISSION,
ET AL.,
PETITIONERS,
V.
PROMETHEUS RADIO PROJECT,
ET AL.,
RESPONDENTS.
____________________

NATIONAL ASSOCIATION OF BROADCASTERS,
ET AL.,
PETITIONERS,
V.
PROMETHEUS RADIO PROJECT, ET AL.,
RESPONDENTS.
____________________
On Writs of Certiorari to the
United States Court of Appeals for the
Third Circuit
____________________
Brief of Amicus Curiae Public Knowledge
_________________

HAROLD FELD
COUNSEL OF RECORD
PUBLIC KNOWLEDGE
1818 N. ST., NW
SUITE 410
WASHINGTON, DC 20036

hfeld@publicknowledge.org
(202) 559-1044

ii
TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ iv
INTEREST OF AMICUS CURIAE ..............................1
STATEMENT OF THE CASE ......................................2
SUMMARY OF ARGUMENT .......................................7
ARGUMENT...................................................................9
I.

THE UNIQUE ROLE OF BROADCASTERS
IN SPECTRUM POLICY. ..................................9
A. Emphasis on Localism and Competition
Distinct from Other Licensees. ..........................9
B. Congress, the FCC, and the Courts Have
Continued to Reinforce the Unique Role of
Broadcasting Despite Constant Changes to the
News and Entertainment Market. ..................12
C. With the Digital Transition, Congress
Explicitly Reaffirmed the Quid Pro Quo of Free
Spectrum in Exchange for Free Over the Air
Broadcasting and Unique Regulatory
Obligations. ........................................................15
D. Broadcasters Continue to Jealously Guard
Their Privileges, While Simultaneously
Seeking to Shed Their Responsibilities. .........18
E. Online News Sources Do Not Replace
Broadcasting and Newspapers for Local News.
20

II.

THE INCENTIVE AUCTION ENHANCED
SCARCITY AND REDUCED DIVERSITY. ...22
A. Understanding the Incentive Auction
Mechanics. .........................................................23

iii
B. The Incentive Auction Highlighted the Value of
the Broadcaster’s Free Spectrum Subsidy, and
Enhanced the Scarcity of Available Broadcast
Channels. ...........................................................27
C. The FCC’s Refusal to Consider the Impact of
the Incentive Auction on Minority and Women
Ownership Was Arbitrary. ...............................28
CONCLUSION .............................................................31
CERTIFICATE OF COMPLIANCE ...........................33

iv
TABLE OF AUTHORITIES
Cases
ABC, Inc. v. Aereo, Inc., 573 U.S. 431 (2014) . . . . 14
Columbia Broad. Sys., Inc. v. Democratic Nat’l
Committee, 412 U.S. 94 (1973) . . . . . . . . . . . . . 4, 12
FCC v. Fox Television Stations, Inc.,
556 U.S. 502 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . 21
FCC v. National Citizens Committee for
Broadcasting, 436 U.S. 775 (1978) . . . . . . . . . . . . . . 3
Fox Television Stations, Inc. v. FCC, 280 F.3d 1027,
(D.C. Cir. 2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Motor Vehicles Mfrs. Ass’n. of U.S. v. State Farm
Auto Ins. Co., 46 U.S. 29 (1983) . . . . . . . . . . . . . . . . 7
Mt Mansfield TV, Inc. v. FCC, 442 F.2d 470
(2nd Cir. 1971). . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
National Broadcasting Co. v. United States, 319 U.S.
190 (1943)* . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 9, 13
Office of Com’n of United Church of Christ, Inc. v.
FCC, 359 F.2d 994 (D.C. Cir 1966) . . . . . . . . . . . . 11
Red Lion Broadcasting Co. v. FCC,
395 U.S. 367 (1969)* . . . . . . . . . . . . . . . . 4,11,18, 21
Turner Broad. Sys. v. FCC, 512 U.S. 622 (1994) . . 20
Turner Broad. Sys. v. FCC,
520 U.S. 180 (1997). . . . . . . . . . . . . . . . . . . . . .3, 14
Prometheus Radio Project v. FCC, 824 F.3d 33
(3d Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 22, 28
Statutes
47 U.S.C. § 303 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
47 U.S.C. § 309 . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 16
47 U.S.C. § 325 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
47 U.S.C. § 336 . . . . . . . . . . . . . . . . . . . . . . . 15, 16, 17
47 U.S.C. §§337 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

v
47 U.S.C. §§ 534-35. . . . . . . . . . . . . . . . . . . . . . . . . . 14
Balanced Budget Act of 1997,
Pub. L. 105-33 § 3002. . . . . . . . . . . . . . . . . . . . .4, 16
Cable Consumer Protection and Competition Act of
1992, Pub. L. 102-385. . . . . . . . . . . . . . . . . . . . . . . . 4
Digital Television Transition and Public Safety Act
of 2005, Pub. L. 109-171 Title III . . . . . . . . . . . . . 15
Middle Class Tax Relief and Job Creation Act of
2012, Pub. L. 112-96 § 6403. . . . . . . . . . . . . . .24, 25
Telecommunications Act of 1996, Pub. L. 104-104. 14
FCC Materials
Authorizing Permissive Use of “Next Generation”
Broadcast Television Standard, Report & Order and
Further Notice of Proposed Rulemaking,
32 FCC Rcd 9930 (2017) . . . . . . . . . . . . . . . . . . . . 18
“By the Numbers,” FCC Incentive Auction
Fact Sheet. . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 26, 27
Elimination of Main Studio Rule, Report & Order,
32 FCC Rcd 8158 (2017). . . . . . . . . . . . . . . . . . . . . 12
Expanding Flexible Use of the 3.7-4.2 GHz Band,
GN Docket No. 18-122, Report and Order and
Order of Proposed Modification,
35 FCC Rcd 2343 (2020) . . . . . . . . . . . . . . . . . . . . 22
FCC Auction 73 Web Page . . . . . . . . . . . . . . . . . . . 26
FCC, “FCC Chairman Responds to House Vote to
Cut the Number of Community Radio Stations by
80%,” (April 13, 2000) . . . . . . . . . . . . . . . . . . . . . . 18
FCC Web Page, “Broadcast Incentive Auction:
Primer for Broadcasters” . . . . . . . . . . . . . . . . . . . .23
FCC Web Page, “Learn Everything About Reverse
Auctions Now (LEARN) FAQs” . . . . . . . . . . . . . . .23
Order on Reconsideration and Further Notice of

vi
Proposed Rulemaking, 32 FCC Rcd 9802
(2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5, 28
Public Notice, “Incentive Auction and Channels
Assignment Public Notice,”
32 FCC Rcd 2786 (2017) . . . . . . . . . . . . . . . . . . . . . 5
Public Notice, “Incentive Auction Task force and the
Media Bureau and the Wireless
Telecommunications Bureau Announce the
Commission is Ready to Pay Reverse Auction
Winning Bids,” 32 FCC Rcd 5715 (2017) . . . . . .6, 27
Public Notice, “Incentive Auction Task Force
Announces of Information Related to Non-Winning
Bids in Auction 1001” 34 FCC Rcd 2376 (2019) . . 25
Rules Governing the Use of Distributed
Transmission System Technologies, Notice of
Proposed Rulemaking, MB Docket No. 20-74,
35 FCC Rcd 3330 (2020). . . . . . . . . . . . . . . . . . . . . 19
Other Authorities
Carl Weinschenk. “Retransmission Fee Forecast
Calls for Another Steep Rise: $11.72 Billion
in 2019,” Telecompetitor (July 30, 2019). . . . . . . . 20
Comments of Asian Americans Advancing
Justice. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 27
Harold Feld, “From Third Class Citizen to First
Among Equals: Rethinking the Place of
Unlicensed Spectrum in the FCC Hierarchy,”
15 CommLaw Conspectus 53, 55 (2007). . . . . . . . . 2
Harold Feld, “NAB/MSTV Embrace Radio Pirates,
Make Up Engineering Data, and Do Whatever Else
it Takes to Kill White Space Devices,” Wetmachine
(October 20, 2008). . . . . . . . . . . . . . . . . . . . . . . . . .18

vii
Congressional Research Service, ”Copyright Act and
Communications Act Changes in 2019 Related to
Television,” January 13, 2020. . . . . . . . . . . . . . . . 14
Congressional Research Service, “TV Broadcast
Incentive Auction: Results and Repacking,”
(October 11, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . .23
Corporation for Public Broadcasting, “Facing the
Spectrum Incentive Auction and Repacking
Process: A Guide for Public Television Stations
and Governing Boards,” (July 8, 2014) . . . . . . . . . 23
Government Accountability Office, “5G
Deployment: FCC Needs Comprehensive Strategic
Planning to Guide Its Efforts,” (2020). . . . . . . . . . 21
Mark Lloyd, “The Strange Case of Satellite Radio,”
American Progress (Feb. 8, 2006) . . . . . . . . . . . . . . 13
Note, “Radio Censorship and the Federal
Communications Commission.” 39 Columbia L.
Rev. 447 (1939). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Pew Research Center, “For Local News, Americans
Embrace Digital but Still Want Strong Community
Connection.” (March 2019) . . . . . . . . . . . . . . . . . . 20

1
INTEREST OF AMICUS CURIAE
Public Knowledge1 is a nonprofit organization
that is dedicated to preserving the openness of the
Internet and the public’s access to knowledge,
including diverse sources of news and information.
For almost 20 years, Public Knowledge has
participated in media policy issues and spectrum
policy issues, ranging from spectrum auction design
to promote competition to regulation of legacy media.
Staff of Public Knowledge actively participated in the
design of the spectrum auction, testifying on multiple
occasions before Congress and participating in
multiple related FCC proceedings. Members of Public
Knowledge have also served on the Department of
Commerce Spectrum Management Advisory
Committee (CSMAC) and the FEMA advisory
committee on the national wireless emergency alert
system.

Pursuant to Supreme Court Rule 37.3(a), Petitioner has
provided blanket consent and Respondent has consented to the
filing of this brief. Pursuant to Rule 37.6, no counsel for a party
authored this brief in whole or in part, and no counsel or party
made a monetary contribution intended to fund the preparation
or submission of the brief. No person or entity, other than amici,
their members, or their counsel, made a monetary contribution
to the preparation or submission of this brief.
1

2
STATEMENT OF THE CASE
Since the Federal Radio Act of 1927, it has
been illegal to operate any device that uses the
electromagnetic spectrum for communications.2
Today, the FCC distributed spectrum access in three
ways. First, the FCC permits devices approved under
Part 15 of its rules to operate on an “unlicensed”
basis by anyone for any purpose. In exchange, these
devices are granted no protection from interference,
must shut down if they cause interference to any
licensed service, and must obey all FCC rules under
which they are certified. Familiar wireless services
such as Wi-Fi and Bluetooth are examples of
unlicensed spectrum use. The FCC also licenses
certain services “by rule” under Section 307(e). These
uses do not require a specific license, but are limited
to their stated purpose and receive only limited
interference protection. Finally, the FCC grants
exclusive licenses. These exclusive licensees are the
only users permitted on the frequencies assigned to
them, and receive interference protection from any
man-made source.3 Broadcasters fit into this last, and
most exclusive category.

See National Broadcasting Co. v. United States, 319 U.S. 190,
210-15 (1943) (NBC v. U.S.) (detailing history of regulation of
spectrum until passage of the Communications Act of 1934).
3 See Harold Feld, “From Third Class Citizen to First Among
Equals: Rethinking the Place of Unlicensed Spectrum in the
FCC Hierarchy,” 15 CommLaw Conspectus 53, 55 (2007). The
FCC may also subdivide the exclusivity, for example permitting
“secondary” users in the same band. For example, low-power
television stations (LPTV) are secondary to full power TV
2

3
While exclusive licenses are today distributed
by auction,4 broadcasters largely received their
licenses for free in exchange for providing specific
services to the public.5 This bargain – a local
monopoly on the use of specific frequencies and a
government set limit on the number of potential
broadcast competitors in a market in exchange for
offering free broadcast programming subject to FCC
regulation – is unique in the spectrum ecosystem.
Congress and this Court have consistently recognized
the important unique roll of broadcasters as distinct
from other spectrum licensees in conferring both
special benefits and special obligations and
restrictions on broadcast licensees. 6

stations. An LPTV station is protected from any harmful
interference except that caused by a full power licensee, and
must not interfere with a full power licensee.
4 Balanced Budget Act of 1997, Pub. L. 105-33 §3002 (requiring
the FCC to use auctions to resolve conflicting applications for
licenses).
5 In 1997, Congress eliminated comparative hearings and
required that broadcasters resolve conflicting applications
through auctions. Id. Broadcast licenses assigned by auction
have constituted only a small fraction of overall full power or
LPTV licenses.
6 See, e.g., Turner Broad. Sys. v. FCC, 520 U.S. 180, 194 (1996)
(Turner II) (“Broadcast television is an important source of
information to many Americans. Though it is but one of many
means for communication, by tradition and use for decades now
it has been an essential part of the national discourse on
subjects across the whole broad spectrum of speech, thought,
and expression.”); FCC v. National Citizens Committee for
Broadcasting, 436 U.S. 775 (1978) (NCCB)
(newspaper/broadcast cross-ownership rule justified as means to
increase diversity of mass media).

4
Most critically, Congress and this Court have
repeatedly recognized, the unique role that
broadcasters play in providing news, particularly
local news, necessary for self-government.7 To
promote the interests of democracy and the First
Amendment, the FCC and Congress have imposed
limits on broadcast ownership.8 Broadcasters now
come before this Court asking it to maintain all the
benefits bestowed on broadcasters, while eliminating
the most important safeguard to providing the
necessary diversity – ownership limits. The presence
of competing sources of information altered the
continuing importance of broadcast news, and
therefore the importance of diversity of ownership in
broadcasting. Especially with the collapse of local
newspapers, broadcasters are increasingly the
primary local source for daily news and analysis. The
flood of raw information pouring in from internet
sources, polluted with misinformation and
disinformation, does not replace dedicated
professional journalists that have earned community
trust through long use and habit. 9 But while
broadcasters insist on the right to consolidate, they
continue to fight equally hard to exclude other wouldbe spectrum users, or pay for interference protection
in the same way that other exclusive licensees pay.

e.g., Cable Consumer Protection and Competition Act of
1992, Pub. L. 102-385 2(6)-(11); Columbia Broadcast System,
Inc. v. Democratic Nat’l Committee, 412 U.S. 94 (1973) (“CBS v.
DNC”); NBC v. U.S., 319 U.S. at 193.
8 See Consolidated Appropriations Act of 2004, Pub. L. 108-199
§629 (setting national broadcast ownership cap at 39%); NBC v.
U.S., supra n.2.
9 Red Lion Broadcasting Co. v. FCC, 395 U.S. 367, 400 (1969).
7See,

5
On March 30, 2017, the FCC concluded
Auction 1000, the “Incentive Auction” designed to
reduce the number of broadcaster licensees and
transfer that spectrum to wireless carriers for
advanced mobile services.10 In addition to being the
most complicated spectrum auction in history, the
auction was a dramatically transformative event for
the broadcast industry. The already scarce and
valuable broadcast band was made even more
valuable by reducing its size. Fully 15 television
channels, from Channel 51 to Channel 37, or roughly
one-third of all available channels, were eliminated
from the broadcast service nationally. This
substantially understates the loss of available
broadcast channels available for use by broadcasters,
since many channels in the remaining markets are
unusable for technical reasons. Not only did this
event eliminate 175 active licensees,11 but it virtually
foreclosed the possibility of the FCC issuing new
broadcast television licenses in all but the least
populated rural markets.
Despite this profound reduction in the number
of broadcast media voices, and the accompanying
increase in scarcity from the elimination of any
potential new broadcast entrants, the Commission in
the decision under review refused to examine the
impact of the auction on minority and women
ownership. Instead, the 2017 Ownership Order stated
Public Notice, “Incentive Auction and Channels Assignment
Public Notice,” 32 FCC Rcd 2786 (2017).
11 “By the Numbers,” FCC Incentive Auction Fact Sheet,
available at: https://www.fcc.gov/document/fcc-announcesresults-worlds-first-broadcast-incentive-auction-0
10

6
that it was still “premature” to analyze the impact of
the Incentive Auction. Order on Reconsideration and
Further Notice of Proposed Rulemaking, 32 FCC Rcd
9802 (2017) (“2017 Ownership Order”) at ¶85. While
acknowledging that the auction was already over and
the Commission possessed information to conduct an
analysis, the FCC declined to do so until the postauction repacking of remaining stations and phase
out of reclaimed licenses was underway. But the
Commission already new which licensees would be
eliminated and which would need to rely going
forward on being able to renew leasing arrangements
with other licensees, as evidenced by their beginning
payouts to the impacted broadcast licensees in July
2017.12 Furthermore, the Commission knew with
certainty the number of broadcast channels
eliminated. Based on this number, the Commission
could determine that women and minority owners
would be foreclosed from acquiring new (either full
power or low-power) licenses directly from the
Commission, and considered the impact of this new
reality. This was particularly important given the
evidence in the record that minority owned stations
were being purchased by spectrum speculators ahead
of the auction. Comments of Asian Americans
Advancing Justice at 8-11. CA3JA980-83

Public Notice, “Incentive Auction Task Force and Media
Bureau and Wireless Telecommunications Bureaus Announce
the Commission is Ready to Pay Reverse Auction Winning
Bids,” 32 FCCRcd 5715 (2017).
12

7
SUMMARY OF ARGUMENT
By refusing to make even a good faith effort to
consider the impact of this transformative event on
diversity of voices generally, and the impact on
women and minorities in particular, the Commission
“entirely failed to consider an important aspect of the
problem.” Motor Vehicles Mfrs. Ass’n. of U.S. v. State
Farm Auto Ins. Co., 46 U.S. 29, 43 (1983). Nor was
the Commission’s rationale for this refusal rational.
The Commission claimed that waiting on the results
of the Incentive Auction repacking would violate the
requirement to consider the existing marketplace at
the time of the Order. 2017 Ownership Order at ¶85.
But the Commission had already met the deadline for
the 2016 Review as required by Section 202(h).
Issuing the Order on Reconsideration was entirely
discretional. Nor did the Commission explain why it
anticipated that anything significant would change
during the repacking. At any event, the Commission
could, at a minimum, have considered the impact of
the removal of broadcast channels on diversity going
forward. And if the Commission were genuinely
uncertain as to the final impact of the repacking on
diversity of ownership, the rational response was to
maintain the status quo rather than to virtually
eliminate the ownership rules to encourage more
consolidation.
Part I provides a detailed description of the
unique nature of broadcast licenses and the long-time
acceptance by broadcasters of what amounts to a
multi-billion dollar spectrum subsidy and business
model monopoly in exchange offering free
programming to the public. This quid pro quo of

8
regulatory favors in exchange for increasingly modest
public interest regulation remains as necessary now
as it was when first adopted in 1927. Part II looks
specifically at the Incentive Auction, which preserved
the special treatment of broadcasters and increased
the scarcity of broadcast spectrum. Part II then
discusses the details of the Incentive Auction, why it
was transformative to the broadcast industry, and
why the manner in which the 2017 Ownership Order
dealt with the Incentive Auction was arbitrary.

9
ARGUMENT
I.

THE UNIQUE ROLE OF BROADCASTERS
IN SPECTRUM POLICY.

The early history of broadcast regulation is
summarized in this Court’s decision in NBC v. United
States.13 Very rapidly in the 1920s, radio
broadcasting displaced all other uses of radio in
importance. For the first time, nation-wide
broadcasting by national networks, called at the time
“chain broadcasting,” dramatically altered the way in
which the country absorbed news and
entertainment.14 While Congress embraced the
potential for national and local news and
programming reaching millions of American
simultaneously, Congress also feared the power of
radio to create violent racial divisions, harass
individuals, and mislead the public.15 As a
consequence, Congress imposed unique obligations on
broadcasters, and directed the FCC to impose further
regulation as necessary to “serve the public interest.”
A.

Emphasis on Localism and
Competition Distinct from Other
Licensees.

Broadcasters have always known and accepted
the bargain offered by Congress: in exchange for free
access to broadcast frequencies, and laws limiting the
ability of others to enter the market, broadcasters
Supra note 2.
Id.
15 Note, “Radio Censorship and the Federal Communications
Commission.” 39 Columbia L. Rev. 447 (1939).
13
14

10
accept special obligations to serve the public.
Specifically, unlike traditional licensing for specific
services — such as two-way communications for first
responders or for buses or truck fleets – broadcasters
received licenses authorized to operate at extremely
high power, covering a designated market area, and
to make money directly from the use of the free public
spectrum resource. Broadcasters alone received their
licensees free, to provide service to anyone with the
right equipment one-way communications for
entertainment or educational purposes, with content
left to the discretion of the broadcaster. As history
shows, this business model proved immensely
popular, profitable and influential.
In addition, because Congress and the FCC
expressly limit the availability of broadcast licenses,
the market is uncontestable through typical means.
While others may broadly compete for eyeballs, the
unique position of broadcasters for over 85 years has
given broadcasters unique advantages in the local
market. As this Court has previously observed:
Long experience in broadcasting, confirmed
habits of listeners and viewers, network
affiliation, and other advantages in program
procurement give existing broadcasters a
substantial advantage over new entrants, even
where new entry is technologically possible.
These advantages are the fruit of a preferred
position conferred by the Government. Some
present possibility for new entry by competing
stations is not enough, in itself, to render
unconstitutional the Government's effort to
assure that a broadcaster's programming

11
ranges widely enough to serve the public
interest.
Red Lion Broadcasting Co. v. FCC, 395 U.S. 367, 400
(1969).16 This remains equally true today.
In exchange for these and other enormous market
advantages, combined with tremendous liberty to use
the spectrum to provide a wide range of
programming, broadcasters have accepted unique
responsibilities and regulations. Most importantly,
Congress and the FCC have regulated to promote
media diversity by limiting the number of broadcast
outlets or other forms of media broadcasters may
own.
Put somewhat poetically, broadcasters are
“trustees” of their exclusive licenses, which they
operate for the benefit of the local community of
record. Broadcasters had (and still have) the shortest
license terms for time of renewal of their licenses and
– in theory if not in recent practice — continuing
requirements to demonstrate their service to the local
community beyond specific compliance with all rules
as a condition of maintaining their licenses. By
contrast, other licensees have lengthier periods of
license renewal, and generally need only show

As discussed in greater detail below, despite the introduction
and popularity of other sources of news and programming,
broadcasters retain their place as the most trusted source of
local news and a valuable source of programming. This position
has been enhanced by regulatory benefits conferred by Congress
and the FCC.
16

12
compliance with rules governing deployment of
facilities.17
B.

Congress, the FCC, and the Courts
Have Continued to Reinforce the
Unique Role of Broadcasting
Despite Constant Changes to the
News and Entertainment Market.

In the past, regulations and responsibilities to
introduce some measure of competition and ensure
service to the local community were extremely
intrusive. These included very specific limitations on
network operators, preventing them from holding
financial interests in broadcast programming, and
requiring networks relinquish prime time
programming hours.18 Congress and the FCC
formerly prohibited cross-ownership of broadcast
outlets with cable systems;19 required broadcasters to
Initially, broadcasters were required to renew their licenses
every three years, and were subject to challenges from the local
community and from rivals arguing that they could provide
better service to the local community. See Office of Com’n of
United Church of Christ, Inc. v. FCC, 359 F.2d 994 (D.C. Cir
1966). Today, broadcasters need only renew their licenses every
8 years, and are no longer subject to competing applications
from potential challengers. See 47 U.S.C. § 309(k). Nevertheless,
broadcast licensees are still obligated to alert listeners/viewers
when their licenses are up for renewal, and members of the
public may challenge their renewal on public interest grounds.
By contrast, most other licenses are renewed every 10-15 years,
and licensees must simply show that they have complied with
the FCC’s rules.
18 See Mt Mansfield TV, Inc. v. FCC, 442 F.2d 470 (2nd Cir.
1971).
19 See Fox Television Stations, Inc. v. FCC, 280 F.3d 1027, 1035
(D.C. Cir. 2002).
17

13
maintain local studios to ensure a commitment to
local programming;20 and required broadcasters to
assess the needs of the local community and
demonstrate that they programed their stations to
meet these needs.21 The FCC previously imposed far
stricter limits on ownership than those relaxed or
eliminated in the 2017 Ownership Order. For
example, the Commission at one time limited
ownership to a single station nationwide.22 All of
these measures furthered the fundamental public
interest goals of enhancing diversity of views in
electronic media from genuinely diverse and
antagonistic sources.
As new means of delivering news and
programing developed, Congress and the FCC have
relaxed or eliminated many of these rules – trusting
that competition from these additional sources would
require broadcasters to focus on improving the
quality of their free broadcasting. At the same time,
however, Congress and the FCC have continued to
reinforce the unique position of broadcasters in the
delivery of free, diverse, local content. Congress has
conferred unique benefits on broadcasters, which
continue to justify the unique ownership rules
imposed on them.
For example, Congress and the FCC have
continued to preserve the monopoly right of broadcast
licensees to their designated market area. The FCC
See Elimination of Main Studio Rule, Report & Order, 32 FCC
Rcd 8158 (2017).
21 CBS v. DNC, 412 U.S. at 110-11 (1973).
22 NBC v. U.S., supra n. 2.
20

14
prohibits satellite radio from offering local news or
local programming that would compete with
terrestrial broadcasters.23 Congress and the FCC
continue to protect local broadcasters from the
importation of non-local broadcast signals offering
competing programming.24 Congress provided to
broadcasters special signal protection rights distinct
from copyright, prohibiting anyone from
retransmitting the signal of a broadcaster without
the express permission of the broadcast licensee
originating the signal.25 At the same time, Congress
also permits local broadcasters to require unwilling
cable operators to carry local affiliates.26 In Turner II,
this Court explained that Congress intended to
preserve a robust local broadcasting service for the
express purpose of preserving production of
competing local news sources necessary for selfgovernance, “a government purpose of the highest
order.”27

See Mark Lloyd, “The Strange Case of Satellite Radio,”
American Progress (Feb. 8, 2006) available at:
https://www.americanprogress.org/issues/democracy/news/2006/
02/08/1829/the-strange-case-of-satellite-radio/
24 See Congressional Research Service, “Copyright Act and
Communications Act Changes in 2019 Related to Television,”
January 13, 2020. Available at:
https://crsreports.congress.gov/product/pdf/R/R46023
25 47 U.S.C. § 325. See also ABC, Inc. v. Aereo, Inc., 573 U.S. 431
(2014).
26 47 U.S.C. §§ 534-35.
27 Turner II, 520 U.S. at 190.
23

C.

15
With the Digital Transition,
Congress Explicitly Reaffirmed the
Quid Pro Quo of Free Spectrum in
Exchange for Free Over the Air
Broadcasting and Unique
Regulatory Obligations.

In the Telecommunications Act of 1996,28
Congress directly reaffirmed the continuing bargain
with broadcasters that they receive valuable
spectrum access rights for free in exchange for
accepting unique regulatory obligations designed to
promote diversity of views in freely available content.
Section 201 of the 1996 Act added Section 336 to the
Communications Act to govern the transition from
analog television to digital television. Congress would
subsequently modify the transition with several
amendments, culminating in the mandatory deadline
for the transition adopted in 2005.29 Congress
required the FCC to reclaim 108 MHz of spectrum, or
channels 69-52, for first responders and to auction for
new wireless services. But Congress also guaranteed
that all full power broadcast licensees displaced by
the transition would receive new advanced television
service licenses in the remaining broadcast bands.
Congress further required that all initial licenses for
advanced television networks would go to existing
full power licensees, followed by other secondary
broadcast licensees such as LPTV licensees. 30 By
doing so, Congress reinforced the scarcity of
Pub. L. 104-104.
See Digital Television Transition and Public Safety Act of
2005, Pub. L. 109-171 Title III.
30 See generally 47 U.S.C. §§336-37.
28
29

16
broadcast channels, ensuring that the expanded
capacity of digital television would in the first
instance go to existing broadcasters, precluding the
use of this expanded capacity for new entry.
At the same time, Congress took explicit steps
to ensure that broadcasters remained focused on
providing free, locally-oriented, over the air
television. Congress permitted broadcasters to offer
non-broadcast services over their licensed spectrum
not used for free broadcasting. But while most
licensees in other services are increasingly given
“spectrum flexibility,” Congress took substantial
steps to limit this ability by requiring that services be
“ancillary” to broadcasting. Congress required that
the FCC adopt regulations to ensure that
broadcasters only provide services “consistent with
the public interest, convenience and necessity.” 47
U.S.C. §336(a)(2). Furthermore, the FCC’s
regulations must prevent any offering of ancillary
services from “derogating” the offering of free,
advanced television broadcast services. 47 U.S.C.
§336(b)(2). Congress required the FCC to charge a fee
to broadcasters for any revenue or indirect
compensation derived from offering ancillary
services, in sharp contrast to the free use of the
spectrum for providing advanced television services.
47 U.S.C. §336(e). Specifically, Congress instructed
the FCC to set the fee to avoid “unjust enrichment”
and to “recover for the public a portion of the value of
the public spectrum resource made available for such
commercial use.” 47 U.S.C. §336(e)(2)(A).
The provision for fee collection further
underscores the importance of the primary bargain

17
between Congress and broadcast licensees to provide
free spectrum in exchange for free programming.
Since 1993, exclusive licensees – with the exception of
public safety licensees and non-commercial users –
are allocated their exclusive use via auction. 31 As
with the fee language in Section 336(e)(2)(A),
Congress directs the FCC to design auctions to
“recover for the public a portion of the value of the
public spectrum resource made available for such
commercial use” and “avoid unjust enrichment.” 47
U.S.C. § 309(j)(3)(C). But Congress also directs the
FCC to provide such licensees with flexible use to the
greatest extent feasible. See 47 U.S.C. § 303(y).
Broadcasters receive their spectrum (including the
new digital licenses) for free in exchange for free
broadcasting to the public. But any non-broadcast use
is subject to the same recovery of public value for the
spectrum and avoidance of unjust enrichment as
other licensees. Furthermore, for broadcasters, any
such flexible use is – and must remain – secondary to
the primary purpose of providing the public with free
broadcast programming.
If all of this were not sufficient to demonstrate
the unique position of broadcasters, Section 336(d)
states:
Nothing in this section shall be construed as
relieving a television broadcasting station from
its obligation to serve the public interest,
convenience, and necessity. In the
Commission’s review of any application for
renewal of a broadcast license for a television
31

Balanced Budget Act of 1997, supra.

18
station that provides ancillary or
supplementary services, the television licensee
shall establish that all of its program
services on the existing or advanced
television spectrum are in the public
interest. (Emphasis added).
In other words, nothing about the old bargain
changed. Despite Congress’ decision to relax several
of the ownership rules in light of anticipated changes
in the market and development of new outlets for
news and entertainment, Congress still mandated the
heart of the traditional quid pro quo with broadcast
licensees. In exchange for enormous subsidies of free
spectrum and protection of their local programming
market, broadcasters provide the public with free,
diverse, locally oriented programming. Ownership
limits remain the single most important means by
which Congress and the FCC ensure the availability
of diversity, mutually antagonistic, news and
perspectives to the public.
D.

Broadcasters Continue to Jealously
Guard Their Privileges, While
Simultaneously Seeking to Shed
Their Responsibilities.

Broadcasters have remained quite jealous of
their privileges, and continued to seek to expand
them. Broadcasters have consistently resisted
sharing even the unassigned spectrum in “their”
band. Broadcasters ferociously resisted the

19
establishment of the low-power FM service.32 They
have continued to resist use of unassigned, empty
television channels (also called “TV white spaces”) on
a non-interfering basis.33 At the same time,
broadcasters have won approval from the FCC to
further expand their spectrum use rights by
upgrading to a new digital standard, ATSC 3.0.34
Broadcasters have petitioned the FCC to expand the
reach of their signal well beyond its natural contours
by using “Distributed Transmission Systems
Technologies.”35
In all these cases, broadcasters have insisted
that they should have no obligation to pay for these
expanded spectrum rights, and that the FCC should
exclude others from non-interfering uses.
Broadcasters have insisted that their existing unique
contributions through local programming justify
these expansive privileges. At the same time,
FCC, “FCC Chairman Responds to House Vote to Cut the
Number of Community Radio Stations by 80%,” April 13, 2000
(criticizing National Association of Broadcasters and National
Public Radio for opposing LPFM service). Available at:
https://transition.fcc.gov/Speeches/Kennard/Statements/2000/st
wek033.html
33 Harold Feld, “NAB/MSTV Embrace Radio Pirates, Make Up
Engineering Data, and Do Whatever Else it Takes to Kill White
Space Devices,” Wetmachine (October 20, 2008). Available at:
https://wetmachine.com/tales-of-the-sausage-factory/nabmstvembrace-radio-pirates-make-up-engineering-data-and-dowhatever-else-it-takes-to-kill-white-space-devices/
34 Authorizing Permissive Use of “Next Generation” Broadcast
Television Standard, Report & Order and Further Notice of
Proposed Rulemaking, 32 FCC Rcd 9930 (2017).
35 See Rules Governing the Use of Distributed Transmission
System Technologies, Notice of Proposed Rulemaking, MB
Docket No. 20-74, 35 FCCRcd 3330 (2020).
32

20
broadcasters now come before this Court to demand
that they be relieved of even the limited obligation to
enhance diversity of views through the existing
ownership limits. This Court should reject the
arguments of broadcasters and their amici that the
restraints on broadcast ownership have become
obsolete even while they seek to expand their unique
wireless privileges. To paraphrase Red Lion, it is idle
to posit a free market in news and diverse
perspectives as long as incumbent broadcasters enjoy
billions of dollars in spectrum subsidies and unique
regulatory protections.
E.

Online News Sources Do Not
Replace Broadcasting and
Newspapers for Local News.

Scarcity is determined by demand as well as
supply. Thus, as this Court has previously explained,
“scarcity” refers not to the total number of news
sources available to the public, but to the total
number of would-be broadcasters denied the
opportunity to broadcast.36 Maximizing the diversity
in available news sources by maintaining ownership
limits on broadcasters continues to serve the purpose
of maximizing the availability to Americans of
important diverse and antagonistic sources of news.37
By any metric, online sources simply do not
provide the same service to the public. This is
Red Lion, 395 U.S. at 389.
See Turner Broad. Sys. v. FCC, 512 U.S. 622, 647-649 (1994)
(”Turner I”). (Recognizing the unique contribution of broadcast
television to media landscape justifies legislative steps to ensure
its continued survival.)
36
37

21
evidenced by the billions of dollars in advertising
revenue paid to local broadcasters – especially during
election years when the ability to reach the largest
audience within the geographic area is at a
premium.38 Pay TV providers continue to pay ever
increasing fees for the privilege of retransmitting
local broadcast signals.39 Americans still list local
television and local radio broadcasts – received
primarily via over the air transmission rather than
via the internet – as the most popular source of local
news.40 As the Court correctly predicted in Red Lion,
“confirmed habits of listeners and viewers” have
continued to confer on broadcasters enormous
advantages over new entrants.41
This Court previously observed in the
indecency context that Congress and the FCC could
rationally conclude that given the prevalence of
indecent content, it should use its power to regulate
broadcasting to create a “safe haven” free from
indecent content when children are likely to be in the
See Pew Research Center, March, 2019, “For Local News,
Americans Embrace Digital but Still Want Strong Community
Connection.” Available at:
https://www.journalism.org/2019/03/26/for-local-newsamericans-embrace-digital-but-still-want-strong-communityconnection/
39 See Carl Weinschenk. “Retransmission Fee Forecast Calls for
Another Steep Rise: $11.72 Billion in 2019,” Telecompetitor
(July 30, 2019). Available at:
https://www.telecompetitor.com/retransmission-fee-forecastcalls-for-another-steep-rise-11-72-billion-in2019/#:~:text=The%20retransmission%20fees%20that%20U.S.,
Kagan%2C%20a%20group%20within%20S%26P
40 Pew supra n.38.
41 Red Lion, 395 U.S. at 400.
38

22
audience. FCC v. Fox Television Stations, Inc., 556
U.S. 502, 529-30 (2009). Similarly, Congress and the
FCC could – and did – reasonably establish
broadcasting as a unique source of local news and
different perspectives. Congress and this Court have
consistently recognized this unique role of
broadcasters, and nothing has changed to alter that
bargain. As discussed below, the Incentive Auction
reinforced the scarcity of available broadcast
channels. It was therefore arbitrary for the FCC to
refuse to evaluate its impact on ownership by women
and minorities when it could easily have done so.
II.

THE INCENTIVE AUCTION ENHANCED
SCARCITY AND REDUCED DIVERSITY.

In 2012, to meet growing demand by mobile
providers, Congress authorized the FCC to conduct
the first ever spectrum “incentive auction.” Because
of the physics of spectrum propagation, the spectrum
occupied by broadcasters is uniquely suited for
offering mobile data services.42 Congress (or the FCC)
could have met this demand by reclaiming additional
broadcast spectrum, as it had in the 1996 Act.
Instead, Congress further highlighted the unique
nature of broadcasters among licensees by creating
an auction designed to pay broadcasters to
voluntarily relinquish their free spectrum access
rights. As explained below, this unusually solicitous

See Government Accountability Office, ”5G Deployment: FCC
Needs Comprehensive Strategic Planning to Guide its Efforts,”
(2020) at 4. (Explaining differences between spectrum bands)
42

23
behavior toward broadcast licensees 43 both preserved
the traditional bargain with broadcasters and
transformed the broadcast industry.
Petitioner/Appellants Prometheus Radio
Project, et al., fully briefed the impact of the Incentive
Auction and why the FCC’s treatment of the
Incentive Auction was arbitrary. 44 Because the Third
Circuit found that the Commission generally failed in
its obligation to consider the impact of its decision on
minority and women ownership, the court below did
not discuss this issue in detail,45 but these issues
represent a separate basis for reversal and illuminate
the context of the broadcaster’s suit.
A.

Understanding the Incentive
Auction Mechanics.

The theory behind the Incentive Auction is
simple. Rather than forcing broadcasters into a
smaller band and simply reclaiming the spectrum,
Congress permitted broadcasters to voluntarily
return their licenses (which they obtained for free) in
exchange for a portion of the revenue raised from
wireless providers. However, as members of
Congress, FCC staff, and stakeholders repeatedly
See, e.g. Expanding Flexible Use of the 3.7-4.2 GHz Band, GN
Docket No. 18-122, Report and Order and Order of Proposed
Modification, 35 FCC Rcd 2343 (2020) (reclaiming 300 MHz of
C-Band Spectrum by reducing allocation to satellite users from
500 MHz to 200 MHz).
44 Reply Brief of Citizen Petitioners at 16.
45 But see Prometheus Radio Project v. FCC, 824 F.3d 33, 54
n.13 (3d Cir. 2016) (Prometheus III) (ordering FCC to consider
impact of Incentive Auction on minority and women ownership).
43

24
acknowledged, the Incentive Auction was the most
complicated auction to design in the history of global
spectrum auctions. It required first a “reverse
auction” where broadcasters would place bids on how
much compensation they would require to take one of
three options: surrender their license and exit
broadcasting complete (“go dark”); surrender their
license and share with a willing broadcaster – which
required the broadcasters to negotiate terms and
subsequent approval by the FCC; or surrender their
existing license and accept a license in the market on
Channels 2-14.46 Wireless bidders in the “forward
auction” would then offer bids on their willingness to
pay to clear the spectrum. But the FCC could not
determine the availability of spectrum until it
determined not only how many broadcasters would
For technical reasons, Channels 2-14 have poor propagation
characteristics for digital television. For a general overview of
the Incentive Auction, see, e.g., Congressional Research Service,
“TV Broadcast Incentive Auction: Results and Repacking,”
(October 11, 2017) available at:
https://www.everycrsreport.com/files/2017-1011_IF10751_8fab74ce1878616976b187a23cb006b586811265.pdf;
Corporation for Public Broadcasting, “Facing the Spectrum
Incentive Auction and Repacking Process: A Guide for Public
Television Stations and Governing Boards,” (July 8, 2014)
available at:
https://www.cpb.org/sites/default/files/atoms/files/CPB-WhitePaper-on-Spectrum-Auction-and-Repacking-Process.pdf; FCC
Web Page, “Broadcast Incentive Auction: Primer for
Broadcasters,“ last updated September 9, 2016, available at:
https://www.fcc.gov/about-fcc/fcc-initiatives/incentiveauctions/primer-broadcasters; FCC Web Page, ”Learn
Everything About Reverse Auctions Now (LEARN) FAQs,” last
updated November 10, 2015, available at:
https://www.fcc.gov/auctions/incentive-auctions/learneverything-about-reverse-auctions-now-learn/learn
46

25
surrender their existing licenses, but in what
geographic locations. Because broadcasting uses an
entirely different band plan and has different spacing
requirements (the distance required between
transmitters to avoid interference) than the band
plan proposed for wireless carriers.
Congress further complicated this already
highly complex and interrelated set of auctions by
adding additional protections for broadcasters. The
Incentive Auction statute required the FCC to use
“all reasonable efforts” to maintain the same
broadcast area for each relocated licensee, which
severely complicated the repacking effort. The statute
prohibited any involuntary transfer of licensees to
Channels 2-14, and prevented the FCC from
modifying existing broadcast licenses prior to the
auction to facilitate the auction or repacking.47
Congress also created a special fund from the auction
revenues to cover broadcaster expenses associated
with repacking.48
To run the auction, the FCC therefore needed
to know and approve the selection of participating
broadcast licensees prior to the beginning of the
reverse auction. The FCC needed a significant
number of broadcasters to surrender their licenses in
the most populous and densely crowded areas for the
incentive auction to work. The FCC therefore knew
going in that a successful auction would have
significant implications for diversity of ownership.
Middle Class Tax Relief and Job Creation Act of 2012, Pub. L.
112-96 § 6403.
48 Id.
47

26
Even if a licensee chose to negotiate with another
licensee and share a channel, that would mean the
loss of an autonomous licensee. The licensee
surrendering the license would need to renegotiate on
a regular basis with the broadcaster retaining their
license.
Finally, Congress mandated that the FCC keep
confidential the identity of broadcasters participating
in the auction until after the auction. 49 Broadcasters
interested in participating in the auction feared that
those broadcaster and broadcast networks which
opposed the auction as an existential threat to
broadcasting would seek to dissuade or retaliate
against interested broadcasters. Indeed, the FCC did
not release the full details of participation by
broadcasters until April 2019.50 Commenters in 2017
therefore did not have complete information to
submit comments to the FCC on the full impact of the
Incentive Auction on diversity. It must be stressed,
however, that the FCC, and the FCC alone, had full
access to all relevant information on the impact of the
Incentive Auction at the time it issued the 2017
Order on Reconsideration.

Id.
Public Notice, “Incentive Auction Task Force Announces of
Information Related to Non-Winning Bids in Auction 1001,” 34
FCC Rcd 2376 (2019).
49
50

B.

27
The Incentive Auction Highlighted
the Value of the Broadcaster’s Free
Spectrum Subsidy, and Enhanced
the Scarcity of Available Broadcast
Channels.

Even before release of the losing bid
information in 2019, many impacts of the Incentive
Auction were immediately apparent in 2017. First,
the FCC “forward auction” grossed nearly $20 billion
dollars for the 84 MHz of broadcast spectrum
cleared.51 This is consistent with the approximately
$20 billion raised in the auction of reclaimed
broadcast spectrum in 2008 as part of the digital
transition.52 This gives some estimate of precisely
how much value to assign to the free spectrum
subsidy given broadcasters in exchange for providing
free over-the-air television.
Additionally, those broadcasters which either
declined to participate or did not get their asking
price to vacate the spectrum reaffirmed their assent
to the traditional bargain between broadcasters and
the federal government. In exchange for free
spectrum valued at billions of dollars, broadcasters
agree to provide free over-the-air programming to
their community of license subject to FCC rules and
obligations. Any broadcaster who found these
conditions unduly onerous had the opportunity to
trade their free licenses for cash.

51
52

By the Numbers, supra n. 11.
See FCC Auction 73, https://www.fcc.gov/auction/73

28
The clearance of 84 MHz of spectrum via the
Incentive Auction made the remaining broadcast
spectrum more scarce – and more valuable – than
ever. At the conclusion of the auction, the FCC knew
the repacking plan and could project exactly how
many available opportunities for either full power or
low power TV stations remained, and in which
markets. The FCC also knew, no later than July 20,
2017, the elections of each of the winning reverse
auction broadcasters and therefore knew (or could
have determined) the impact of the Incentive Auction
on ownership by women and minorities.53
C.

The FCC’s Refusal to Consider the
Impact of the Incentive Auction on
Minority and Women Ownership
Was Arbitrary.

As noted above, Petitioners Prometheus Radio
Project, et al. raised the issue of the impact of the
Incentive Auction before the FCC, and fully briefed
the matter before the Third Circuit panel. Because
the Third Circuit found that the Commission had
generally failed to consider the impact of relaxing the
rules on women and minority ownership, it made no
specific finding with regard to the failure to consider
the impact of the Incentive Auction. Petitioners have
On July 20, 2017, the FCC issued a Public Notice that it was
ready to provide payment to all winning bidders in the reverse
auction. Public Notice, “Incentive Auction Task force and the
Media Bureau and the Wireless Telecommunications Bureau
Announce the Commission is Ready to Pay Reverse Auction
Winning Bids,” 32 FCC Rcd 5715 (2017). To pay the winners,
the FCC would need to know both their market area and their
election.
53

29
preserved the argument in their merits brief, and it is
therefore properly before the Court.
The Incentive Auction was a transformative
event for the broadcast industry. It eliminated onethird of available broadcast channels nationwide, and
175 full power broadcasters surrendered their
existing licenses.54 Even before the Incentive Auction,
commenters warned that purchases by speculators
were negatively impacting ownership by minorities. 55
In Prometheus III, the Third Circuit directly
instructed the FCC to address the impact on the
Incentive Auction on women and minority
ownership.56
Nevertheless, the 2017 Recon Order addressed
the impact of the Incentive Auction in the most
arbitrary and cursory way possible. In a single
paragraph, the Order declines to address the impact
of the Incentive Auction until the completion of the
repacking in 2018. 2017 Ownership Order at ¶85.
The Order states that considering the impact of the
Incentive Auction would amount to “refusing to fulfill
its obligations under Section 202(h)” and that “202(h)
requires the Commission to consider on the record
before it.”
Bluntly, this reasoning makes no sense. As an
initial matter, the Commission had already
completed its obligation to act under 202(h) by
issuing the 2016 Quadrennial Review Order. Grant of
By the Numbers, supra n.11.
Comments of Asian Americans Advancing Justice at 8-11.
CA3JA980-83
56 Prometheus III, 824 F.3d at 54 n.13.
54
55

30
a Petition for Reconsideration is entirely
discretionary. Even if the Commission had been
missing relevant data from the Incentive Auction, the
Commission could have waited to grant the Petition
for Reconsideration until it could fully assess the
impact of the Incentive Auction as the Third Circuit
had previously instructed – or simply deferred
permitting additional consolidation until the next
Quadrennial Review.
More importantly, the Commission did not
address the information available to it — despite
repeated requests by Petitioners that it do so. The
Commission already had the necessary information to
assess the impact of the Incentive Auction. At a
minimum, the Commission knew that it had become
substantially more difficult for women or minorities
to win new full power or low-power TV licenses
because of the significant reduction in available
channels – particularly in the largest and most
desirable markets. The Commission could also assess
the number of returned licenses belonging to women
or minorities using the same data it used to conclude
that consolidation would not harm ownership
diversity. Far from justifying refusal to consider the
impact of the Incentive Auction, the Commission’s
reasoning that winning bidders in the reverse auction
might change their elections did not mean the
Commission should eschew all analysis. The
Commission knew the total potential reduction in
diversity based on the auction results. Whether
stations planning to go dark elected to stay on the air,
or stations initially electing to stay on the air in some
capacity elected to go dark, the FCC could certainly
assess the maximum potential impact. To the degree

31
any uncertainty remained, the Commission should
have waited before relaxing the rules. Further
consolidation cannot be easily reversed.
Finally, the Commission’s error is particularly
egregious in light of the direct instruction in
Prometheus III to consider the impact of the Incentive
Auction, and because the Commission alone had
possession of all the relevant information. But even
without the confidential information known to the
Commission, the Commission could certainly have
assessed the impact of the enhanced scarcity of
broadcast channels and the reduction of future
opportunities for women and minorities to acquire
licenses as a consequence.
CONCLUSION
For almost 85 years, broadcasters have enjoyed
unique privileges among exclusive spectrum
licensees. In exchange for these privileges,
broadcasters agree to abide by the FCC’s rules and
policies promoting diversity in media markets. The
unique value and power of broadcast licenses in
providing diverse sources of news and different
viewpoints remains critically important to the public
today. Before relaxing the ownership rules, the FCC
had a responsibility to assess the impact of its
decision on ownership by women and minorities –
and obligation reinforced by the Third Circuit’s
remand in Prometheus III. Nevertheless, the FCC
refused to consider the impact of the Incentive
Auction — the single most transformational event on
broadcast ownership in a decade. It’s stated reasons
for this refusal are both inadequate and irrational.

32
The FCC was uniquely situated to consider the
impact of the Incentive Auction. It simply refused to
do so. That consideration alone, in addition to the
other errors identified below, warranted reversal.
WHEREFORE the Court should affirm the
judgment below.
Respectfully submitted,
HAROLD FELD
COUNSEL OF RECORD
PUBLIC KNOWLEDGE
1818 N. ST., NW
SUITE 410
WASHINGTON, DC 20036
(202) 559-1044

December 23, 2020

33
IN THE SUPREME COURT OF THE UNITED
STATES
No. 19-1231, 19-1241
Federal Communications Commission, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents
National Association of Broadcasters, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the Brief of Amicus Curiae Public Knowledge
contains 6984 words, excluding the parts of the brief
that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is
true and correct.
Executed on December 23, 2020
/s/ Harold Feld
COUNSEL OF RECORD
PUBLIC KNOWLEDGE
1818 N. ST., NW
SUITE 410
WASHINGTON, DC 20036
(202) 559-1044

